SU? E-Mail Address: 1115 H Street, N.E.
st briefs@wilsonepes.com Washington, D.C. 20002
WILSOIVEPES PRINTING ;

tH Iie Web Site: Tel (202) 789-0096
eatees www.wilsonepes.com Fax (202) 842-4896

No. 20-1775

STATE OF ARIZONA, et al.,
Petitioners,
v.

CITY AND COUNTY OF SAN FRANCISCO, e¢ al.,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on August 23, 2021, three (3) copies of the BRIEF IN OPPOSITION
FOR THE STATE OF CALIFORNIA, DISTRICT OF COLUMBIA, STATE OF MAINE,
COMMONWEALTH OF PENNSYLVANIA, AND STATE OF OREGON in the above-captioned
case were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

BRUNN W. ROYSDEN III SARA J. EISENBERG
Solicitor General DEPUTY CITY ATTORNEY
OFFICE OF THE ARIZONA ATTORNEY GENERAL City Hall Room 234
2005 N. Central Avenue 1 Dr. Carlton B. Goodlett Place
Phoenix, AZ 85004 San Francisco, CA 94102
Counsel for Petitioners Counsel for City and County of San Francisco
BRIAN FLETCHER JEFF T, SPRUNG
Acting Solicitor General Assistant Attorney General
DEPARTMENT OF JUSTICE OFFICE OF THE WASHINGTON
Room 5616 ATTORNEY GENERAL
950 Pennsylvania Avenue, NW 800 Fifth Avenue, Suite 2000
Washington, D.C. 20530-0001 Seattle, WA 98104
Counsel for Federal Respondents Counsel for the State of Washingion, et al.

The following email addresses have also been served electronically:

Beau.Roysden@azag.gov
SupremeCtBriefs@usdoj.gov
sara.eisenberg@sfcityatty.org

jeff.sprung@atg.wa.gov
Helen.Hong@doj.ca.gov ( Ww

ROBYN DORSEY WILLIS.

WILSON-EPES PRINTING COMPANY, INC.
1115 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 23rd day of August 2021.
?

 
 
   

COLIN CASEYHOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
